Chris DeRose, Clerk of Court
*** Electronically Filed ***
S. Ortega, Deputy
9/21/2018 8:00:00 AM
Filing ID 9724752

Granted with Modifications
***See eSignature page ***

1
2
3
4

James D. Lee, Bar No. 011586
Senior Bar Counsel/Unauthorized Practice of Law Counsel
State Bar of Arizona
4201 North 24th Street, Suite 100
Phoenix, Arizona 85016-6266
LRO@staff. azbar. org

5
IN THE SUPERIOR COURT OF THE STATE OF ARIZONA
IN AND FOR THE COUNTY OF MARICOPA

6
7
8
9
10
11
12

THE STATE BAR OF ARIZONA,
Plaintiff,

Case No. CV 2017-000456
JUDGMENT
AND ORDER

vs.
RICHARD S. BERRY,
Respondent.

(Unauthorized Practice of Law;
Rules 75-80, Ariz. R. Sup. Ct.)
Assigned to the Honorable Joseph C. Welty

13
14
15

This matter, having been tried to the Court, and the Court, being fully informed,

16

finds by clear and convincing evidence that Respondent engaged in the unauthorized

17

practice of law in Arizona, as set forth in Counts One, Two, Four and Five of the State

18

Bar’s complaint.

19
20
21

The Court finds that injunctive relief in the form of a cease and desist order, which
will prohibit Respondent from engaging in the practice of law and the unauthorized
practice of law, is appropriate.
IT IS HEREBY ORDERED, pursuant to Rules 76(a) and 76(b)(2), Ariz. R. Sup.

A

1

Ct., that Respondent Richard S. Berry is permanently enjoined from engaging in the

2

unauthorized practice of law in Arizona, as defined by Rule 31, Ariz. R. Sup. Ct., and

3

relevant case law.

4
5
6
7
8

IT IS FURTHER ORDERED that Respondent is permanently enjoined from
using the designations “lawyer,” “attorney at law,” “counselor at law,” “law,” “law
office,” “J.D., 55 u Esq.,” or other equivalent words, the use of which is reasonably likely
to induce others to believe that he is authorized to engage in the practice of law in
Arizona.
The Court finds that restitution is appropriate only to those individuals who believed

9
they were paying for more than they were entitled to receive from Respondent or Why
10
Pay a Lawyer?
11
a.
12
13
14
15
16
17

Rev. Newman (Count One) is entitled to $250 in restitution because he

believed he was visiting with a lawyer, and the demand letter drafted and sent by
Respondent was wholly rejected by the recipient based on the fact that Respondent
was not a lawyer.
b.

Ms. Vyskocil (Count Two) is entitled to $730 in restitution because

Respondent told her that he was an attorney.
c.

Patricia Rae Dennis (Count Four) was placed on notice on several

18

occasions that the bankruptcy documents or forms would be filed in her name and

19

that she was not to mention Respondent’s name in court. Ms. Dennis is not entitled

20

to restitution because she received what she understood she would receive (i.e.,

21

documents she could file in Bankruptcy Court).
2

d.

1

Mr. Dunn (Count Five) is not entitled to restitution because there is no

2

evidence that he believed he was visiting a lawyer or obtaining the services of a

3

lawyer when he consulted with Respondent, and he received what he understood he

4

would receive (i.e., documents he could file in Maricopa County Superior Court).
THEREFORE, IT IS FURTHER ORDERED that Respondent Richard S. Berry

5
6
7

pay restitution to Rev. Mark Newman (Count One) in the amount of $250, and to
DiAnne Vyskocil (Count Two) in the amount of $730.
This judgment is entered pursuant to Rules 75 through 80, Ariz. R. Sup. Ct., and

8
9

Rule 54(c), Ariz. R. Civ. P., as no further matters remain pending.
DATED this

10

day of August, 2018.

11
Judge Joseph C. Welty
Maricopa County Superior Court

12
13
14
15

Original filed with the Clerk of
the Maricopa County Superior Court
this_____day of August, 2018.

16

by:

17
18
19
20
21
3

eSignature Page 1 of 1
Filing ID: 9724752 Case Number: CV2017-000456
Original Filing ID: 9577012
Granted with Modifications

/SI Joseph Welty Date: 9/20/2018
Judicial Officer of Superior Court

NOTICE: NOT FOR OFFICIAL PUBLICATION.
UNDER ARIZONA RULE OF THE SUPREME COURT 111(c), THIS DECISION IS NOT PRECEDENTIAL
AND MAY BE CITED ONLY AS AUTHORIZED BY RULE.

IN THE

Arizona Court of Appeals
Division One
THE STATE BAR OF ARIZONA, Plaintiff/Appellee,
v.
RICHARD S. BERRY, Defendant/Appellant.
No. 1 CA-CV18-0661
FILED 1-16-2020

Appeal from the Superior Court in Maricopa County
No. CV2017-000456
The Honorable Joseph C. Welty, Judge
AFFIRMED
COUNSEL
State Bar of Arizona, Phoenix
By James D. Lee
Counsel for Plaintiff/Appellee
Richard S. Berry, Tempe
Defendant/Appellant

MEMORANDUM DECISION
Presiding Judge Kenton D. Jones delivered the decision of the Court, in
which Judge James B. Morse Jr. and Judge Diane M. Johnsen joined.

£

STATE BAR v. BERRY
Decision of the Court
JONES, Judge:
Richard Berry appeals the superior court's judgment finding
he engaged in the unauthorized practice of law, as defined by Arizona Rule
of the Supreme Court (Rule) 31, and enjoining him from further
unauthorized conduct. For the following reasons, we affirm.
LEGAL BACKGROUND

1f2

The power to regulate the practice of law in Arizona is vested
exclusively in our supreme court, whose authority extends over those
admitted to the Arizona bar as well as non-lawyers and disbarred attorneys.
See In re Creasy, 198 Ariz. 539, 541, f 7-8 (2000); Sobol v. Alarcon, 212 Ariz.
315, 319,
18-19 (App. 2006). In a lawful exercise of this power, "the
supreme court has promulgated rules defining and describing both the
practice of law and the unauthorized practice of law." Sobol, 212 Ariz. at
319, Tf 19; see generally Ariz. R. Sup. Ct. 31,1 75. These rules identify the
activities that may only be performed by a licensed attorney and seek to
"protect the public from the intolerable evils which are brought upon
people by those who assume to practice law without having the proper
qualifications." Morley v. J. Pagel Realty & Ins., 27 Ariz. App. 62, 65 (1976)
(quoting Gardner v. Conioay, 48 N.W.2d 788, 794 (Minn. 1951)).

113

As such, under Arizona law, subject to certain exemptions not
applicable here, "no person shall practice law in this state or represent in
any way that he or she may practice law in this state unless the person is an
active member of the state bar." Ariz. R. Sup. Ct. 31(b); see also Ariz. R. Sup.
Ct. 31(d) (identifying exemptions). Rule 31 specifically prohibits a non­
active member of the state bar from using designations such as "lawyer" or
"counselor at law," Ariz. R. Sup. Ct. 31(a)(2)(B) (defining the unauthorized
practice of law), and "providing legal advice or services to or for another"
by:
(1) preparing any document in any medium intended to
affect or secure legal rights for a specific person or entity;
(2) preparing or expressing legal opinions;

1
Absent material changes from the relevant date, we cite the current
version of rules and statutes.
2

STATE BAR v. BERRY
Decision of the Court
(3) representing another in a judicial, quasi-judicial, or
administrative proceeding, or other formal dispute
resolution process such as arbitration and mediation;
(4) preparing any document through any medium for filing
in any court, administrative agency or tribunal for a
specific person or entity; or
(5) negotiating legal rights or responsibilities for a specific
person or entity.
Ariz. R. Sup. Ct. 31(a)(2)(A) (defining the practice of law).
FACTS AND PROCEDURAL HISTORY

14

In January 2017, forty years after Berry was disbarred by our
supreme court, the State Bar of Arizona (State Bar) filed a complaint against
Berry alleging six counts of the unauthorized practice of law.

1f5

After a two-day bench trial, the superior court found clear and
convincing evidence that Berry engaged in the unauthorized practice of law
on four occasions.2 Specifically, the court found Berry, while affiliated with
a paralegal firm called "Why Pay a Lawyer?," had: (1) prepared, signed,
and mailed a demand letter on behalf of another person that included legal
analysis the person did not specifically direct; (2) represented himself as a
lawyer to a second person; drafted a demand letter for the second person
that included legal analysis the person did not specifically direct; and
prepared a breach of contract complaint for the second person that was later
filed in superior court; (3) selected or prepared various bankruptcy
documents for a third person that required legal analysis and were
ultimately filed in bankruptcy court; and (4) selected or prepared legal
documents for a fourth person that addressed legal issues related to a
specific landlord-tenant dispute.

16
The superior court determined Berry's conduct was
sanctionable, permanently enjoined Berry from engaging in the
unauthorized practice of law in Arizona, and ordered Berry to pay
restitution. See Ariz. R. Sup. Ct. 76(a) (describing the grounds for sanctions,
including "[a]ny act found to constitute the unauthorized practice of law
pursuant to Rule 31"), (b) (describing the available sanctions to include
2
The State Bar voluntarily dismissed one count; the superior court
dismissed another.
3

STATE BAR v. BERRY
Decision of the Court
imposition of an injunction and restitution). Berry timely appealed, and we
have jurisdiction pursuant to Arizona Revised Statutes (A.R.S.) §§ 12120.21(A)(1) and -2101(A)(1).
DISCUSSION
I.

Sufficiency of the Evidence

V

Berry first argues the State Bar failed to prove by clear and
convincing evidence that he engaged in the unauthorized practice of law as
defined by Rule 31.3 However, when an appellant "contend[s] on appeal
that a judgment, finding or conclusion]] is unsupported by the evidence or
is contrary to the evidence, the appellant must include in the record
transcripts of all proceedings containing evidence relevant to that
judgment, finding or conclusion." ARCAP 11(c)(1)(B); see also Myrick v.
Maloney, 235 Ariz. 491, 495, f 11 (App. 2014) ("An appellant also has an
obligation to provide transcripts and other documents necessary to
consider the issues raised on appeal.") (citing Baker v. Baker, 183 Ariz. 70, 73
(App. 1995)). "We presume the items not included in the appellate record
support a trial court's ruling." Myrick, 235 Ariz. at 495,111 (citing Baker,
183 Ariz. at 73).
Berry did not provide transcripts of the two-day bench trial;
nor does his appellate case management statement indicate compliance
with ARCAP ll(c)(l)-(3) (describing the appellant's duty to order
transcripts). Berry has thus waived any argument regarding the sufficiency
of the evidence to support the superior court's findings. See Boltz &
Odegaard v. Hohn, 148 Ariz. 361, 366 (App. 1985) ("Where no transcript of
evidence is made part of the record on appeal, a reviewing court will not
3
Berry presents several arguments not raised before the superior
court. However, "matters not raised below . . . will not be considered on
appeal." Murphy v. Town of Chino Valley, 163 Ariz. 571, 578 (App. 1989)
(citing Norcor of Am. v. S. Ariz. Int'l Livestock Ass'n, 122 Ariz. 542, 544-45
(App. 1979)); see also Palmer v. City of Phx., 242 Ariz. 158,165, f 26 (App.
2017) ("[A] party must timely present his legal theories to the trial court so
as to give it an opportunity to rule properly.") (quoting Payne v. Payne, 12
Ariz. App. 434,435 (1970)). And although Berry suggests his actions could
have rightfully been undertaken by a certified legal document preparer
(CLDP), see Ariz. R. Sup. Ct. 31(d)(24) (recognizing that a CLDP may
perform services in compliance with Part 7, Chapter 2, of the Arizona Code
of Judicial Administration), Berry admits he is not a CLDP, and the court
found he was not a CLDP at the relevant time.
4

STATE BAR v. BERRY
Decision of the Court
question the sufficiency of evidence to sustain the ruling.") (citing Riley v.
Jones, 6 Ariz. App. 120,122 (1967)).
II.

Constitutionality

Berry next challenges the constitutionality of Rule 31. We
H9
review constitutional challenges de novo and will presume constitutionality
unless the challenger convinces us otherwise beyond a reasonable doubt.
See 3613 Ltd. v. Dep't of Liquor Licenses & Control, 194 Ariz. 178, 182, 17
(App. 1999) (citations omitted).

flO

Berry contends that Rule 31's provisions governing the
practice of law and unauthorized practice of law are unconstitutionally
overbroad and vague because the rule identifies several exemptions. See
Ariz. R. Sup. Ct. 31(d). But none of those exemptions apply to his conduct.
Because Berry engaged in the type of conduct Rule 31 expressly prohibits,
he is precluded from challenging Rule 31 on the grounds that it is
unconstitutionally overbroad or vague.4 See Martin, 195 Ariz. at 316, ^ 77
(collecting cases); Broadrick v. Oklahoma, 413 U.S. 601, 608 (1973) ("[E]ven if
the outermost boundaries of [a statute challenged for vagueness] may be
imprecise, any such uncertainty has little relevance . . . where appellants'
conduct falls squarely within the 'hard core' of the statute's proscriptions.")
(collecting cases).
III.

Antitrust Laws

Finally, relying upon North Carolina State Board of Dental
Examiners v. Federal Trade Commission (N.C. Dental), 135 S. Ct. 1101 (2015),
Berry contends enforcement of Rule 31 violates federal antitrust law
because the members of the State Bar who regulate and enforce the rules
are "active participants in the same profession as those [they] govern[]."
See Ariz. R. Sup. Ct. 32(c) (outlining parameters for membership in the State

til _

4
An exception exists where the law's "potential deterrent effect on
First Amendment activities is 'both real and substantial.'" Martin v.
Reinstein, 195 Ariz. 293, 316, ^ 78 (App. 1999) (quoting Maricopa Cty. Juv.
Action No. JT9065297, 181 Ariz. 69, 73 (App. 1994)). Although Berry
contends Rule 31 "outlaw[s]" commercial speech because it bans lawyer
advertising, nothing in the text of the rule supports such an interpretation.
Nor does he cite any authority suggesting he has a constitutional right to
give legal advice in contravention of our supreme court rules prohibiting
disbarred attorneys from practicing law.
5

STATE BAR v. BERRY
Decision of the Court
Bar).5 We review legal questions de novo. McNamara v. Citizens Protecting
Tax Payers, 236 Ariz. 192, 194, 5 (App. 2014) (citing Lincoln v. Holt, 215
Ariz. 21,23, f 4 (App. 2007)).
In N.C. Dental, the Federal Trade Commission (FTC) filed an
1112
administrative complaint alleging the efforts of the North Carolina State
Board of Dental Examiners (the Board) to exclude non-dentists from the
teeth-whitening services market "constituted an anticompetitive and unfair
method of competition under the [FTC] Act." 135 S. Ct. at 1108-09. The
FTC rejected the Board's claim that it was immune from antitrust laws. Id.
at 1109. In affirming, the U.S. Supreme Court recognized that antitrust laws
"confer immunity on anticompetitive conduct by the [s]tates when acting
in their sovereign capacity." Id. at 1110 (citing Parker v. Brown, 317 U.S. 341,
350-51 (1943)). When a state delegates control over a market to a non­
sovereign actor that is controlled by active market participants, it "enjoys
Parker immunity only if . . . the challenged restraint [is] clearly articulated
and affirmatively expressed as state policy, and . . . the policy [is] actively
supervised by the [s]tate." Id. (quoting FTC v. Phoebe Putney Health Sys.,
Inc., 568 U.S. 216, 225 (2013)); see also Goldfarb v. Va. State Bar, 421 U.S. 773,
788 (1975) (recognizing that where an anticompetitive program gets "its
authority and its efficacy from the legislative command of the state," there
is no antitrust violation because the law "was intended to regulate private
practices and not to prohibit a [s]tate from imposing a restraint as an act of
government") (citing Parker, 317 U.S. at 350-52, and Olsen v. Smith, 195 U.S.
'■ 332,344-45(1904)).
Berry contends Arizona's regulation of the practice of law is
H13
analogous to North Carolina's system of regulating dental practices. We
disagree.
The Board in N.C. Dental admitted it was not actively
1fl4
supervised by the state and therefore, without doubt, ineligible for
5
In conjunction with this argument, Berry argues Rule 31 creates an
illegal monopoly that only "promote[s] lawyer income and eliminate[s]
competition [between lawyers and nonlawyers]." See 15 U.S.C. § 2
(designating the monopolization of trade or commerce as a felony offense);
see also A.R.S. § 44-1403. Berry does not, however, suggest the State Bar
controls pricing for legal services or that he, as a disbarred attorney, is a
lawful competitor in the market for legal services. See Pasco Indus., Inc. v.
Talco Recycling, Inc., 195 Ariz. 50, 57-61, f1f 22-49 (App. 1998) (explaining
how the elements of a monopolization claim may be proven). Therefore,
we need not and do not address the argument.
6

STATE BAR v. BERRY
Decision of the Court
immunity. Id. at 1116. The U.S. Supreme Court nonetheless identified "a
few constant requirements of active supervision/' namely:
The supervisor must review the substance of the
anticompetitive decision, not merely the procedures followed
to produce it; the supervisor must have the power to veto or
modify particular decisions to ensure they accord with state
policy; and the "mere potential for state supervision is not an
adequate substitute for a decision by the [s]tate." Further, the
state supervisor may not itself be an active market participant.
Id. at 1116-17 (citing Patrick v. Burget, 486 U.S. 94,102-03 (1988), and then
quoting FTC v. Ticor Title Ins., 504 U.S. 621, 638 (1992)). "In general, the
adequacy of supervision . . . will depend on all the circumstances of the
case." Id.

1fl5

Examining those factors here, we find the State Bar
adequately supervised by our supreme court. Indeed, the U.S. Supreme
Court has previously recognized the Arizona Supreme Court's supervisory
authority over the State Bar, noting that while "the State Bar plays a part in
the enforcement of the rules, its role is completely defined by the [Arizona
Supreme] [C]ourt; the [State Bar] acts as the agent of the court under its
continuous supervision." Bates v. State Bar ofAriz., 433 U.S. 350, 361 (1977)
(holding an antitrust claim against the State Bar was precluded by Parker
immunity). Our supreme court creates the rules and maintains the
authority to veto or modify decisions of the State Bar. See id. at 359-60
("[T]he challenged [disciplinary rule] is the affirmative command of the
Arizona Supreme Court.... That court is the ultimate body wielding the
State's power over the practice of law,. . . adopt[s] the rules, and ... is the
ultimate trier of fact and law in the enforcement process."). The Arizona
Rules of the Supreme Court govern both the substantive requirements for
admission and continued membership in the State Bar and the attendant
procedures. See generally Ariz. R. Sup. Ct. 32 to 45. Finally, the Arizona
Supreme Court is not an active market participant; by definition, judicial
members of the State Bar are "not engaged in the practice of law." Ariz. R.
Sup. Ct. 32(c)(6). Sufficient state supervision exists here, and antitrust laws
do not prohibit the State Bar from enforcing our supreme court's
regulations governing the practice of law and unauthorized practice of law.

7

STATE BAR v. BERRY
Decision of the Court
CONCLUSION
116

The superior court's judgment is affirmed.

AMY M. WOOD • Clerk of the Court
FILED: AA

8

u
Y

m

>,tri

Supreme Court
STATE OF ARIZONA
ROBERT BRUTINEL
Chief Justice

ARIZONA STATE COURTS BUILDING
1501 WEST WASHINGTON STREET, SUITE 402
PHOENIX, ARIZONA 85007
TELEPHONE: (602) 452-3396

JANET JOHNSON
Clerk of the Court

July 29, 2020
RE:

STATE BAR OF ARIZONA v RICHARD S' BERRY
Arizona Supreme Court No. CV-20-0044-PR
Court of Appeals, Division One No. 1 CA-CV 18-0661
Maricopa County Superior Court No. CV2017-000456

GREETINGS:
The following action was taken by the Supreme Court of the State
of Arizona on July 28, 2020, in regard to the above-referenced
cause:
ORDERED: Petition for Review = DENIED.
Janet Johnson, Clerk
TO:

James D Lee
Richard S Berry
Amy M Wood
pm

f

tf.
R

REGULATION

V.

REGULATION OF THE PRACTICE OF LAW

A. Supreme Court Jurisdiction over the Practice of Law
Rule 31, Regulation of the Practice of Law
(a) Supreme Court Jurisdiction Over the Practice of
Law
l' Jurisdiction. Any person or entity engaged in the
practice of law or unauthorized practice of law in" this
state, as defined by these rules, is subject to this court’s
jurisdiction.
2. Definitions.
A. ■ "Practice of law” means providing legal advice or
services to or for another by: • ■
(1) preparing any document in any medium intend­
ed to affect or secure legal rights for a specific person
or entity;
(2) preparing or expressing legal opinions;
•• :
(3) representing another in a judicial, quasi-judicial,
or administrative proceeding, or other formal dispute
resolution process such as arbitration and mediation,
(.
(4) preparing any document through any medium
for filing in any court, administrative agency or tribu, , nal for a specific person dr entity; or .
(5) negotiating legal rights or responsibilities for a
[
F. specific person or entity.
: ’
B. "Unauthorized practice of law” includes but is not
:
0 limited to:
(1) engaging in the- practice of law by persons' or
t
entities riot authorized to practice pursuant to para­
graphs (b) or ’ (c) or specially admitted to practice
pursuant to Rule 38(a); or
if
(2) using the designations 'lawyer,”. "attorney at
law,” "counselor at law,” "law, law office, J.D.,
si
"Esq.,” or other equivalent words by any person or
entity who is not authorized to practice law, in this
state pursuant to paragraphs (b) or (c) or specially
admitted to practice pursuant to Rule 38(a), the use of
IBv
which is reasonably likely to induce others to believe
that the person or entity is authorized to engage in the
practice, of Jaw in this state.
| - C. "Legal assistant/paralegal” means a person quali? fied by education and training who performs substantive
|. t-legal work requiring a sufficient knowledge of and experI -j.tise in legal concepts and procedures, who is supervised
: by an active member of the State Bar of Arizona, and for
m If. -..whom an active member of the state bar is responsible,
| unless otherwise authorized by supreme court rule.
I •- D. "Mediator” means an impartial individual who is
appointed by a court or government entity or engaged by
k £ ^: disputants through written agreement to mediate a dis%
c pute. Serving as a mediator is not the practice of law.
■')

P

Rule 31

of law practice

E. "Unprofessional conduct” means substantial or re­
peated violations of the Oath of Admission to-the Bar or
the Lawyer’s Creed of Professionalism of the State Bar of
Arizona.
(b) Authority to Practice. Except as hereinafter'provid­
ed in section (d), no person shall practice law in this state
or represent in any way that he or she may practice law in
this state unless the person is an active member of the state
bar.
(c) Restrictions on Disbarred Attorneys’ and Members’
Right to Practice. No member who is currently suspended
or on disability inactive status and no former member who
has been ' disbarred shall practice law in this state or
represent in any way that he or she may practice-law in
this state.
• (d) Exemptions. Notwithstanding the provisions of section (b), but subject to the limitations of section (c) unless
otherwise stated:
1. In any proceeding before the Department of Eco­
nomic Security or Department of Child Safety, .including a
hearing officer, an Appeal Tribunal or the Appeals Board,
an individual party' (either claimant or opposing party) may
be represented by a duly -authorized agent who is not
charging a fee for the representation; an employer, includ­
ing a corporate employer, may represent itself through an
officer or employee; of a duly authorized agent who is
charging a fee may represent any party, providing that an
attorney authorized to practice law in the State of Arizona
shall be responsible for and supervise such agent.
2. An employee.may designate a representative, not
necessarily an attorney, before any board hearing or any
quasi-judicial hearing dealing with personnel matters, pro­
viding that no fee may be charged for any services ren­
dered in connection with such hearing by any such desig­
nated representative not an attorney admitted to practice.
3. An officer of a corporation or a managing member of
a limited liability company who is not an active member of
the state bar may represent such entity before a justice
court or police court provided that: the entity has specifi­
cally authorized such officer or managing member to rep­
resent it before such courts; such representation is not the
officer’s or managing member’s primary duty to the entity,
but secondary or incidental to other duties relating to the
management or operation of the entity; and the entity was
an original party to or a first assignee of a conditional sales
contract, conveyance, transaction or occurrence that gave
rise to the cause of action in such court, and the assign­
ment was not made for a collection purpose.
4. A person who is not an active member of the state
bar may represent a party in small claims procedures in
the Arizona Tax Court, as provided in Title 12, Chapter 1,
Article 4 of the Arizona Revised Statutes.

b

ule 31

RULES OF THE SUPREME COURT

REGULAT

5. In any proceeding in matters under Title 23, Chapter
officer’s or employee’s primary duty to the corporation but
Article 10 of the Arizona Revised Statutes, before any
secondary or incidental to other duties related to the man,
ministrative law judge of the Industrial Commission of
agement or operation of the corporation; the officer or
izona or review board of the Arizona Division of Occupaemployee is not receiving separate or additional compensa­
nal Safety and Health or any successor agency, a corpotion (other than reimbursement for costs) for such repre­
:e employer may be represented by an officer or other
sentation; and the corporation has been provided with a
ly authorized agent of the corporation who is not chargtimely and appropriate written general warning relating to
; a fee for the representation.
the potential effects of the proceeding on the corporation's
3. An ambulance service may be represented by a corand its owners' legal rights.
rate officer or employee who has been specifically au11. Unless otherwise specifically provided for in this
>rized by the ambulance service to represent it in an
rule, in proceedings before the Office of Administrative
ministrative hearing or rehearing before the Arizona
Hearings, or in fee arbitration proceedings conducted un­
partment of Health Services as provided in Title 36,
der the auspices of the State Bar of Arizona Fee Arbitration
apter 21.1, Article 2 of the Arizona Revised Statutes.
Committee, a legal entity may be represented by a full-time
7-. A person who is not an active member of the state
officer, partner, member or manager of a limited liability
r may represent a corporation in small claims procecompany, or employee, provided that: the legal entity has
res, so long as such person is a full-time officer or
specifically authorized such person to represent it in the
horized full-time employee of the corporation who is
particular matter; such representation is not the person's
: charging a fee for the representation. .
primary duty to the legal entity, but secondary or inciden­
tal to other duties relating to the management or operation
>. In any administrative appeal proceeding of the Deof the legal entity; and the person is not receiving separate •
rtment of Health Services, for behavioral health services,
or additional compensation (other than reimbursement for
rsuant to A.R.S. § 36-3413 (effective July 1, 1995), a
costs) for such representation.
*ty may be represented by a duly authorized agent who
lot charging a fee for the representation.
12. In any administrative appeal proceeding relating to '
the Arizona Health Care Cost Containment System, an
'. An officer or employee of a corporation or unincorindividual may be represented by a duly authorized agent
'ated association who is not an active member of the
who is not charging a fee for the representation.
te bar may represent the corporation or association
ore the superior court (including proceedings before the
13. In any administrative matter before the Arizona
ster appointed according to A.R.S. § 45-255) in the
Department of Revenue, the Office of Administrative Hear­
leral stream adjudication proceedings conducted under
ings relating to the Arizona Department of Revenue, a state
zona Revised Statutes Title 45, Chapter 1, Article 9,
or county board of equalization, the Arizona Department of
ivided that: the corporation or association has specifiTransportation, the Arizona Department of Economic Se­
ty authorized such officer or employee to represent it in
curity, the Department of Child Safety,, the Arizona Corpo­
; adjudication; such representation is not the officer’s
ration Commission, or any county, city, or town taxing or
employee’s primary duty to the corporation but secondappeals official, a taxpayer may be represented by (1) a
’or incidental to other duties related to the management
certified public accountant, (2) a federally authorized tax
operation of the corporation or association; and the
practitioner, as that term is defined in A.R.S.
cer or employee is not receiving separate of additional
§ 42-2069(D)(l), or (3) in matters in which the dispute,
. npensation (other than reimbursement for costs) for
including tax, interest and penalties, is less than $5,000.00
h representation. Notwithstanding the foregoing provi(five thousand dollars), any duly appointed representative.
l, the court may require the substitution of counsel
A legal entity, including a governmental entity, may be
enever it determines that lay representation is interferrepresented by a full-time officer, partner, member or
with the orderly progress of the litigation or imposing
manager of a limited liability company, or employee, pro­
lue burdens on the other litigants. In addition, the
vided that: the legal entity has specifically authorized such
it may assess an appropriate sanction against any party
person to represent it in the particular matter; such repre­
attorney who has engaged in unreasonable, groundless,
sentation is not the person’s primary duty to the legal
.sive or obstructionist conduct.
entity, but secondary or incidental to other duties relating
to the management or operation of the legal entity; and the
0. An officer or full-time, permanent employee of a
person is not receiving separate or additional compensa­
poration who is not an active member of the state bar
tion (other than reimbursement for. costs) for such .repre­
f represent the corporation before the Arizona Departsentation.
it of Environmental Quality in an administrative proding authorized under Arizona Revised Statutes. Title
14. If the amount in any single dispute before the State
provided that: the corporation has specifically authorBoard of Tax Appeals is less than twenty-five thousand
l such officer or employee to represent it in the particudollars, a taxpayer may be represented in that dispute
administrative hearing; such representation is not the
before the board by a certified public accountant or by a
492

federally au
fined in A.R
15. In a
U.S.C. § 14
identificatio
provision of
with a disa
represented
training wil
disabilities ;
and who is ;
tion. The h<
the individu
ministrative
sented.
16. Noth
accountant
as that ten:
practicing l
federal agen
17. Noth
of individua
clients or t
filing .with
accountant <
that term is
18. Noth
lawyer assis
in complian
conduct. • T
19. Noth
court, court
tion- courts i
documents f
20. Noth
tion of doer
ness , when t
and not mad
' 21.' Noth
tion of. tax re
22. Noth
in the Arizor
23. Noth
employee ol
duties of his
of business c
'24. Noth
document p
an’ce with A:
Chapter 2, S
paragraph (c
or member 1
Arizona. Cod

r

JRT

REGULATION OF LAW PRACTICE

but
lan: or
nsapreh a
g to
on’s

federally authorized tax practitioner, as that term is de­
fined in A.R.S. § 42-2069(D)(l).
15. In any administrative proceeding pursuant to 20
U.S.C. § 1415(f) or (k) regarding any matter relating to the
identification,' evaluation, educational placement, 'or: the
provision of a free appropriate public education for a .child
with a- disability or suspected disability, a party may be
represented by an- individual with special -knowledge or
training with respect to the problems of children with
disabilities as determined by the administrative law judge,
and who is not charging the party a fee for the representa­
tion. The hearing officer, shall-have discretion to remove
the individual, if continued representation impairs, the ad­
ministrative process or causes.harm to the parties repre­
sented.

this
tive
un­
ion
ime
ility
has
the
>n’s
lenion
•ate
for

16. Nothing in these rules shall limit a certified public
accountant or other federally 'authorized tax; practitioner,
as that term is defined in A.R.S. § 42-2069(D)(l), from
practicing before the Internal Revenue Service or other
federal agencies where so'authorized; .. ‘ -.'■■■
17. Nothing in ;these rules-shall prohibit the rendering
of individual and .corporate financial and taX.advi'ce to
clients or .the preparation of tax-related documents for
filing .-with governmental agencies by a certified public
accountant or other federally authorized tax practitioner as
that term is defined in A.R.S. §' 42-2069(D)(l).
"

; to

an
ent

18. Nothing in this rule shall affect the ability of non­
lawyer assistants to act under the supervision of a lawyer
in compliance with ER 5.3 of the rules of professional
conduct. This exemption; is' not subject to section (c).

>na
arate
: of
5e-

19. Nothing-in these .rules shall prohibit the supreme
court, court of appeals, superior courts, or limited jurisdic­
tion courts in this state from creating and-distributing form
documents for use in Arizona courts.

DO-

or
i a

:ax

20. Nothing in these rules shall prohibit the prepara­
tion of documents incidental to a regular course of- busi­
ness when the documents are for the use of the business
and not made available to third parties. .V •

.s.

te.
00
ve.

"21. Nothing in these rules shall prohibit the prepara­
tion of. tax returns.

be
or

22. Nothing in these rules shall affect the rights granted
in the Arizona or United'States Constitutions.

’O-

eh
•e:al

23. Nothing in these rules shall prohibit an officer or
employee of a governmental entity from performing the
duties of his or her office or carrying out the regular course
of business of the governmental entity.

Ig

be
aete
id

te

ft
&

Rule 31
•25. Nothing in these rules.shall prohibit, a mediator as
defined in these rules from preparing a written mediation
agreement or filing such agreement with the appropriate
court, provided that:
(A)- the mediator is employed,- appointed or referred by
' a court or government entity and is Serving-as a-media­
tor at the' direction of the court or government entity; or
. (B) the mediator is participating without compensa­
tion in a non-profit mediation program, a communitybased organization, or'a professional association.
In all other cases, .a mediator who is., not an active
member of the state bar, and-..who prepares or provides
legal documents for. the parties without the supervision of
an attorney must be certified as a legal document preparer
in compliance with the Arizona Code of judicial. Adminis­
tration, Part 7, Chapter 2, Section 7-208.
•
••:.*'••••
...
, 26. .Nothing in these rules- shall, prohibit a-property tax
agent, as that term is defined in.A.R.S. § 32-3651, who is
registered with the Arizona State Board of Appraisal .pur­
suant to A.R.S. § 32-3642, from practicing as authorized
pursuant to A.R.S., § -42-16,001.
27. Nothing in these rules ’ shall' affect the ability of
lawyers licensed in another jurisdiction to. engage in con• duct that is permitted under ER 5.5 of the. rules, of profes­
sional conduct.
28. .In fiiatters before the.Arizona Corporation Commis­
sion, a -public- service corporation, -an interim operator
appointed by the Commission,' or a non-profit organization
may b,e represented by a corporate officer, employee, or a
member who 'is riot an active member ..of, the state bar if:
(A) the public service corporation, interim operator, or
, ' non-profit organization has • specifically authorized the
. officer, employee, or member to represent it in the.par• ticular matter,
' (B) such representation's not the person’s primary
duty to the public service corporation, interim operator1,
.- or non-profit organization, but is secondary or incidental
to such person’s duties relating to-the management or
operation of the public service corporation, interim oper­
ator, or non-profit' organization, and
(-C) the person is'hot receiving separate or additional
compensation (other than reimbursement for costs) for
such representation.
Notwithstanding the foregoing.provisions, the Commis­
sion or presiding officer may require counsel in' lieu of lay
representation whenever it determines that lay representa­
tion is interfering with the orderly progress of the.proceed­
ing, imposing undue burdens on the other parties, or
causing harm to the parties represented.

24. Nothing in these rules shall prohibit a certified legal
document preparer from performing services in compli­
ance with Arizona Code of Judicial Administration, Part 7,
Chapter 2, Section 7-208. This exemption is not subject to
paragraph (c) of this rule, as long as the disbarred attorney
29. In any landlord/tenant dispute before the Arizona
or member has been certified as provided in § .7-208 of the
Department.of Fire, Building and Life Safety, an individual
Arizona Code of Judicial Administration.
may be represented by a duly authorized agent who is not
493

' Rule 31

RULES OF THE SUPREME COUR^ l/'^GUl

charging a fee for the representation, other than reim­
bursement for actual costs.
30. A person licensed as a fiduciary pursuant to A.R.S.
§ 14-5651 may perform services in compliance with Ari­
zona code of judicial administration, Part 7, Chapter 2,
Section 7—202. Notwithstanding the ■ foregoing provision,
the court may suspend the fiduciary's authority to act
without an attorney whenever it determines that lay repre­
sentation is interfering with the orderly progress' of the
proceedings or imposing undue burdens on other parties.
31. Nothing in these rules shall prohibit an active member or full-time employee of an association defined in
A.R.S. §§ 33-1202 or 33-1802, or the officers and employ­
ees of a management company providing management
services to the association, from appearing in a small
claims action, so long as:
.
(A) the association’s employee or management compa­
ny is specifically authorized in writing by the association
to appear on behalf of the association;
(B) the association is a party to the small r.laimc
action.
Amended April 14, 1986, effective April 15, 1986; July 27, 1987
effective Sept. 1, 1987; April 25, 1988, effective May 1,1988; Dec.’
20, 1988, effective Jan. 15, 1989; June 27, 1989, effective Sept. 1,
1989; July 20, 1989, effective Jan. 1, 1990; Oct. 11, 1989, retroac­
tively effective to July 1, 1989; Oct. 4, 1990, effective Dec. 1, 1990.
Amended and effective Feb. 5, 1991. Amended July 16 1991
effective Sept. 1, 1991; Sept. 26, 1991, effective Dec. 1, 1991Dec. 12, 1991, effective Jan. 1, 1992; Sept. 30, 19921'effective Dec.
1, 1992; May 25, 1994, effective Dec. 1, 1994; Jan. 30, 1995,
effective June 1, 1995; Feb. 6, 1995, effective June 1, 1995; July
20, 1995, effective Dec. 1, 1995; Sept. 21, 1995, effective Dec. 1,
1995; April 3, 1997, effective June 1, 1997; Oct. 6, 1997, effective
Dec. 1, 1997; April 27,' 1998, effective July 1, 1998. Amended and
effective April 14, 1999. .Amended June 17, 1999, effective June
30, 1999; June 17, 1999,. effective July 1, 1999. Correction
October 1, 1999. Amended Jan. 6, 2000, effective June 1, 2000;
Oct. 11, 2002, effective Dec. 1, 2002; Oct 28, 2002. effective Dec.
1, 2002; Jan. 15, 2003, effective July 1, 2003; Feb. 12, 2003,
effective July 1, 2003. Amended and effective Oct. 16, 2003; Oct!
17, 2003. Amended June 8, 2004,'effective Dec. 1, 2004; June 6,
2005, effective Dec. 1, 2005; Jan. 20, 2006, effective June 1, 2006;
Jan. 27, 2006, effective’June 1, 2006; Sept. 5/2007, effective Jan.
I, 2008; Sept. 3, 2009, effective Jan. 1, 2010; D.ec. 13, 2011
effective Sept. 1, 2012; Aug. 30, 2012, effective Jan. 1, 2013; June
II, 2014, effective on an expedited basis July 24, 2014; Sept. 2,
2014, effective on an expedited basis, Sept. 1, 2014. Amended'and
effective on a permanent basis, Dec. 16, 2014.. Amended Aug. 27
2015, effective Jan,. 1, 2016.

i| !V;

Employees' Merit System Commission, 127 Ariz. 259
(1980). Nevertheless, under appropriate circumstances '[i!
the Cpurt may deem it in the public interest to implement ''
a legislative enactment providing for lay representation
^
under specified conditions. Ibid. The 1991 amendment -rf
adding subparagraph G adopts the provisions of A.R.S.
'4
§ 22-512, providing for representation of corporations in
small claims actions. It should be noted that, under the 'ff -1
practice prevailing in the small claims divisions, litigants ■ ,A

•„ h,
loyalt
!' dibit with
l ;l Ir will e
iklnsactior
'&*"aDOro
L ifhitration
ef %r-i -n 4
V

a «o51c2^?-r ^eP»ctice^f-law statute referred to in. 1 I
A.R.S. § 22-512(B), A.R.S. § 32-261, was repealed by ' ]1 1
Laws 1982, Ch. 202, § 17 eff. Jan. 1, 1985.
y

1; fecial re
h
will adv
F Weakness;
t S “While I r
Jt' {Se-represei
tajdate or e
(f_ Honorable r
rJ.Vith resj
|;®i will be <

*3

Note to 1991 Amendment

‘•■1 j

This change [(c) 4.] incorporated specific reference to -i!)
members .on disability inactive status.

M

I will maintain the confidence and preserve inviolate the secrets o'f%
client; I will accept no compensation in connection with my cliM's
business except from my client or with my client's knowledge and approyfl;
I. wiH abstain from all offensive conduct; I will not advance any fit
prejudicial to the honor or reputation of a parly or witness, unless require!
by the justice of the cause with which I am charged;
~ |
I will never reject, from any consideration personal to myself,' the cause ffl
the defenseless or oppressed, nor will I delay any person's cause for greed
or malice;
.
i
1 "d11 atalJ times faithfully and diligently adhere to the rules of profession
al responsibility and a lawyer’s creed of professionalism of the State Barjp
Arizona.

■41

A Lawyer's Creed of Professionalism of the State Bar of Arizona!
Preamble
As a lawyer I must strive to make our system of justice .work fairly m
efficiently. In order to carry out that responsibility; I’ Will comply witK#
letter and spirit of the, disciplinary standards applicable to all lawyers
will conduct myself in accordance with the following Creed of Profession#
ism when dealing with my client, opposing parties, their counsel, tritd®
and the general public.
\/ai
A. With respect to my client:
-shf

[1991] Commfeht [to 31(a) ]
The practice of law is a matter exclusively within the
authority of the judiciary. Hunt v; Maricopa County

•V, «

NOTES TO 2002 AMENDMENTS
'•'si
i
These amendments clarify that the Supreme Court au­
thorizes the amount of the annual member assessment
v
that goes to the Client Protection Fund, that the Court "f
requires that the State Bar Board of Governor maintain a■
•r.
Client Protection Fund, and that .the Fund is a separate riif ?
’
entity from the State Bar. The amendments also correct, -J' A
references to the Fund to reflect the correct name of the /
Fund ("Client Protection Fund" instead of "Client Securi- 1,i£\
ty Fund"):
.
-j !
I - J••
.i| s ■
The Oath of Admission to the Bar
swear
that
I
will
support
the
Const}*
I
I, (state your name), do solemnly
tion of 'the United States and the Constitution of the State of Aihionf ;■§ :
I will maintain the respect due to courts of -justice and judicial Pfficerd;! $ /j
I will not counsel or maintain any suit or-proceeding that shall app&t& ■£ *
me to be without merit or to be unjust; I will not assert any defense exceift $
such as I honestly believe to be debatable under the law of the larjd;
I wi!l employ for the purpose of maintaining the causes confided to me SS 1
such means only as are consistent with truth and honor; I will never se«s & - J ■
mislead the judge or jury by any misstatement or false statement of factor |'

SJ

[Original] Comment
Rule 31 has not been significantly revised, except for
the removal of former § 27(Z), relating to the Disciplinary
Commission, to new rule 47. A general statement of
administrative responsibility has been added as § 31(h).
Most definitions relating to discipline and disability pro!
ceedings have been removed from former § 27(b) and
moved to rule 46 on that subject.
.

3

This change [(c) 5.] provides that a judge assumes active- v. 3
status in the bar upon retirement or resignation.
’ _■}
This change [(c) 6.] expressly provides for waiver of the
annual fee for members who have been transferred to '
disability inactive status.

1

"i. . I will not
Wiiditigatic
jjjpns. of tim
Interests of i
i I ..will ern
depositions
cooperate w
Ttfwill not

imposing pai

It will not
!flm all reasc
Twill not u
- pdepositi
myself with c
disrespectful;
jjjwill not s
J^oppor
.
conce
- Stwill identi
nfifein S
respe,
Mi™1 be 311
j$£^°[nthe ‘

:$;
cons
f:
ffislng cour
J , '“^actually cc
'|
W^volunt
. •:
r
do nc
')jyili not file
f'will make •
voluntar
^ Will attem*
^f^d in my oj
&bn schedi
J ^sing couni
“^Pgssible;
n
/Before dates
^
Mediately af
^ability of k
«
ifcvF,ourt (°r 01
I
“^regard;
;*
,*9 civil matte
-*
.}
,|^iU endeav
■*%

, depositions

494

J

.

'

I-

